HHS/OIG, Audit -"Review of Financial Systems and Internal Controls over Medicare Accounts Receivable - TrailBlazer Health Enterprises, LLC.,"(A-06-02-00001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Financial Systems and Internal Controls over Medicare Accounts
Receivable - TrailBlazer Health Enterprises, LLC.," (A-06-02-00001)
May 16, 2003
Complete
Text of Report is available in PDF format (3.4 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This limited scope audit was made to gain an understanding of TrailBlazers policies
and procedures related to its accounts receivable operations and, where applicable,
to provide TrailBlazer with written policies and procedures for its consideration
in making changes and improvements to such operations.  At the outset of our
fieldwork, TrailBlazer did not have adequate written policies and procedures in
place or did not always follow existing policies and procedures.  However,
during and subsequent to the completion of our fieldwork, TrailBlazer provided
us with both written policies and procedures and verbal explanations of the corrective
actions taken to address the concerns identified during our fieldwork.  The
recommendations included in our report provided for further improvements or clarifications
of TrailBlazers policies and procedures related to the areas of concern.  TrailBlazer
officials generally concurred with these recommendations.